TN

@OCKLE

2311 Douglas Street Le ga l Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 - www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-607
WOODCREST HOMES, INC.,
Petitioner,
v.
CAROUSEL FARMS METROPOLITAN DISTRICT,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 10th day of December, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE SOUTHEASTERN LEGAL
FOUNDATION, CATO INSTITUTE, OWNERS’ COUNSEL OF AMERICA, AND NATIONAL FEDERATION OF
INDEPENDENT BUSINESS SMALL BUSINESS LEGAL CENTER IN SUPPORT OF PETITIONER in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
Robert H. Thomas Kimberly S. Hermann
Counsel of Record SOUTHEASTERN LEGAL
DAMON KEY LEONG FOUNDATION
KUPCHAK HASTERT 560 W. Crossville Road
1600 Pauahi Tower Suite 104
1003 Bishop Street Roswell, Georgia 30075
Honolulu, Hawaii 96813 (770) 977-2131
(808) 531-8031
rht@hawaiilawyer.com Counsel for Amici Curiae

Subscribed and sworn to before me this 10th day of December, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

os EC Eile Qudia-h. ble

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 39025
SERVICE LIST

Attorney for Petitioner:

Jeffrey Hallett Redfern

Institute for Justice

901 North Glebe Road, Suite 900
Arlington, VA 22203
jredfern@ij.org

612-308-1084

Attorney for Respondent:

Mark Christopher Fleming
WilmerHale

60 State Street

Boston, MA 02109
mark.fleming@wilmerhale.com
617-526-6000
